                            CTOR
                      SPE          GE
                 IN                     N
             F                              E
         O                                      R
     E




                                                A
 C




                                                    L
FI
OF




                                                        OFFICE OF INSPECTOR GENERAL

                                                             EXPORT-IMPORT BANK

                                                              of the UNITED STATES





EXPLICIT COMPUTER USAGE




                                                                           Special Report
                                                                          August 26, 2010
                                                                           OIG-SR-10-02
OFFICE OF INSPECTOR GENERAL            Export-Import Bank
                                       of the United States

  August 26, 2010


  MEMORANDUM

  TO: 	             Fernanda Young, Chief Information Officer
                    Bill Smith, Director, IT Infrastructure and Security

  FROM:             	Jean Smith         

                    Assistant Inspector General for Audit 


  SUBJECT: 	        Explicit Computer Usage


  This memorandum transmits Special Report OIG-SR-10-02, Explicit Computer Usage. The
  review was initiated by the Office of Inspector General of the Export-Import Bank of the United
  States (Bank) to determine whether the Bank has (1) policies on information technology use and
  disciplinary guidance and (2) controls to prevent and identify Ex-Im Bank employees accessing
  sexually explicit material on government computers.

  The report contains one suggestion. We suggested that the Chief Information Officer alert the
  Inspector General (IG) of computer misuse involving incidents referred to management for
  disciplinary actions. The Chief Information Officer stated that incident reports will be provided
  to the IG after the Office of General Counsel reviews the reports. Appendix C of this report is
  the Chief Information Officer’s formal response to our review.

  We appreciate the courtesies and cooperation provided to the auditors during the review. If you
  have any questions, please call me at (202) 565-3944.




  cc: 	   Audit Committee
          Alice Albright, Senior Vice President, Chief Operations Officer
          Michael Cushing, Senior Vice President, Resource Management
          John Simonson, Chief Financial Officer and Audit Liaison




                  811 Vermont Avenue, N.W. Washington, D.C. 20571
Explicit Computer Usage                                                           OIG-SR-10-02 

                                      Special Report 




EXECUTIVE SUMMARY

The Office of Inspector General (OIG) performed a limited review to address an inquiry
from Senator Charles E. Grassley on the viewing, downloading, and possible distribution
of pornography at the Export-Import Bank of the United States (Ex-Im Bank). Our
specific objectives were to determine whether Ex-Im Bank has (1) policies on
information technology use and disciplinary guidance and (2) controls to prevent and
identify Ex-Im Bank employees accessing sexually explicit material on government
computers.

Ex-Im Bank has policies and annual employee training on the proper use of government
computers. Additionally, Ex-Im Bank’s Policy 752 – Employee Conduct and Discipline
provides the basic rules of discipline for Ex-Im Bank.

Controls are in place to block employees’ computer from accessing sexually explicit
material, monitor computer activity, and take appropriate action to prevent further illicit
access and report incidents. The Office of the Chief Information Officer (OCIO)
maintains Internet and e-mail blockers to prevent access to prohibited sources, reviews
activity logs daily, and takes necessary appropriate action. When employee misuse is
identified, the Chief Information Officer submits a Security Incident Report for further
processing by General Counsel. However, the OIG is not alerted of the incident.

General practice by government agencies is to report misconduct to the Inspector General
(IG). We suggest that the Chief Information Officer includes the IG in the distribution of
Security Incident Reports on computer misuse involving incidents referred to
management for disciplinary actions.

The Chief Information Officer stated that incident reports will be provided to the IG after
the Office of General Counsel reviews the reports. Appendix C of this report is the Chief
Information Officer’s formal response to our review.




                                              i               Office of Inspector General
                                                                   Export-Import Bank of the United States
Explicit Computer Usage                                                                                   OIG-SR-10-02 

                                                    Special Report 




                                             TABLE OF CONTENTS
 


EXECUTIVE SUMMARY ................................................................................................. i
 


I.       BACKGROUND .................................................................................................... 1
                  


II.      OBJECTIVES ......................................................................................................... 1
         


III.     SCOPE AND METHODOLOGY .......................................................................... 1
                         


IV.      FINDINGS AND SUGGESTION .......................................................................... 2 

         A. 	 ADEQUATE POLICIES ON INFORMATION TECHNOLOGY USE AND 

              DISCIPLINARY GUIDANCE EXIST........................................................... 2
 


         B. 	 ADEQUATE CONTROLS ARE IN PLACE TO MANAGE ACCESS OF 

              SEXUALLY EXPLICIT MATERIAL ........................................................... 4 

              Suggestion 1.................................................................................................... 6 

              Management Response ................................................................................... 6
 


APPENDIX A – STANDARDS OF ETHICAL CONDUCT ............................................ 7
 


APPENDIX B – DOUGLAS FACTORS ........................................................................... 9
 


APPENDIX C – MANAGEMENT RESPONSE ............................................................. 10 





                                                             ii	                     Office of Inspector General
                                                                                           Export-Import Bank of the United States
Explicit Computer Usage                                                         OIG-SR-10-02 

                                     Special Report 




I.     BACKGROUND

Use of government property, 5 Code of Federal Regulations, part 2635.704 (a) states:

       An employee has a duty to protect and conserve Government property and shall
       not use such property, or allow its use, for other than authorized purposes.

       Government property includes any form of real or personal property in which the
       Government has an ownership, leasehold, or other property interest as well as any
       right or other intangible interest that is purchased with Government funds,
       including the services of contractor personnel. The term includes office supplies,
       telephone and other telecommunications equipment and services, the Government
       mails, automated data processing capabilities, printing and reproduction facilities,
       Government records, and Government vehicles.



II.    OBJECTIVES

The objectives of this review were to determine whether Ex-Im Bank has (1) policies on
information technology use and disciplinary guidance and (2) controls to prevent and
identify Ex-Im Bank employees accessing sexually explicit material on government
computers.



III.   SCOPE AND METHODOLOGY

We interviewed Ex-Im Bank’s Director, Information Technology (IT) Infrastructure and
Security in the Office of the Chief Information Officer, and we reviewed computer
activity logs. We also reviewed applicable procedures and information available on the
Ex-Im Bank’s internal website.

Over a two day period during our fieldwork, we conducted an unannounced test on Ex-
Im Bank’s controls of preventing and identifying pornography access on government
computers. The test consisted of attempting to access and retrieve pornographic material
on the Internet and e-mails. Subsequent to this test, we reviewed how promptly Ex-Im
Bank responded to our test activities.

We conducted our fieldwork from August 2, 2010 to August 10, 2010.

We performed a limited review to address an inquiry from Senator Charles E. Grassley
regarding employees’ use of Ex-Im Bank computers to obtain pornography.
                                            1                Office of Inspector General
                                                                 Export-Import Bank of the United States
Explicit Computer Usage                                                             OIG-SR-10-02 

                                        Special Report 




IV.	 FINDINGS AND SUGGESTION


A.	      ADEQUATE POLICIES ON INFORMATION TECHNOLOGY USE
         AND DISCIPLINARY GUIDANCE EXIST

Ex-Im Bank issued adequate policies to inform users of the proper use of its computers
and potential disciplinary actions for misuse. Additionally, as part of the annual IT
security training, computer users are reminded that use of Ex-Im Bank computers
prohibit accessing sexually explicit or sexually orientated material. Annual IT security
training requires the participants to review and accept Ex-Im Bank’s Rules of Behavior.

Ex-Im Bank established policies titled Rules of Behavior and “Limited Personal Use” of
Government Office Equipment Including Information Technology to advise users that use
of computers, e-mail, the Internet, and electronic information, must be in a professional,
appropriate, ethical, and lawful manner.

The Rules of Behavior states that employees and contractors must:

      	 	 Adhere to the “Limited Personal Use” of Government Office Equipment 

           Including Information Technology. 


      	 	 Adhere to the established standards of conduct as defined in Ex-Im Bank Policy
           752 – Employee Conduct and Discipline and Standards of Ethical Conduct for
           Employees of the Executive Branch.

The Rules of Behavior further states:

         Failure to conform one’s conduct to these rules may lead to adverse action,
         including but not limited to, suspension of access privileges, reprimand,
         suspension, or termination from the federal service, and/or civil and/or criminal
         penalties. All users have no right to or expectation of privacy while using any Ex-Im
         Bank IT system at any time, including accessing the Internet, using e-mail, or limited
         personal use.

“Limited Personal Use” of Government Office Equipment Including Information
Technology provides a list of inappropriate personal uses. “The creation, download,
viewing, storage, copying, or transmission of sexually explicit or sexually oriented materials”
is included in the policy’s Inappropriate Personal Uses list.

For disciplinary guidance, Ex-Im Bank established Policy 752 – Employee Conduct and
Discipline. This Policy contains Standards of Ethical Conduct for Employees (Appendix

                                               2	               Office of Inspector General
                                                                     Export-Import Bank of the United States
Explicit Computer Usage                                                            OIG-SR-10-02 

                                       Special Report 



A), Douglas Factors 1 (Appendix B), and a Table of Offenses and Suggested Disciplinary
Penalties. Disciplinary penalties listed in Policy 752 are provided as guidance. In each
case of formal discipline, the supervisor must coordinate with the Office of Human
Resources before proposing and deciding the appropriate action. All proposed
suspensions and removals must be coordinated with the Assistant General Counsel for
Administration in the Office of the General Counsel (OGC). Present below is the
suggested penalty for conducting explicit computer use.

         Nature of Offense         First Offense       Second Offense              Third Offense
       Misuse of the            Written Reprimand      14-Day Suspension           Removal
       Bank’s computer          to Removal             to Removal
       systems, Internet, or
       electronic mail

Although Ex-Im Bank alerted employees of prohibited computer use, over the last two
years the Director, IT Infrastructure and Security Office, identified two employees who
accessed pornography on Ex-Im Bank computers and alerted the OGC. While the OGC
was processing the cases, these employees voluntarily left the federal government.




1
 In Douglas v. Veterans Administration (1981), the Merit Systems Protection Board identified 12
relevant factors that agency management needs to consider and weigh in deciding an appropriate
disciplinary penalty.
                                               3                Office of Inspector General
                                                                    Export-Import Bank of the United States
Explicit Computer Usage                                                         OIG-SR-10-02 

                                      Special Report 





B.	    ADEQUATE CONTROLS ARE IN PLACE TO MANAGE ACCESS
       OF SEXUALLY EXPLICIT MATERIAL

Ex-Im Bank has adequate controls in place to block employees’ computer from accessing
sexually explicit material, monitor computer activity, and take appropriate action to
prevent further illicit access and report incidents. However, the Inspector General (IG)
has not been traditionally alerted of these incidents. General practice by government
agencies is to report misconduct to the IG. While Ex-Im Bank’s Charter directs General
Counsel to ensure appropriate legal counsel for advice on, and oversight of, issues
relating to personnel matters, alerting the IG of computer misuse will assist the IG in
preventing and detecting fraud and abuse in programs and operations as required under
the Inspector General Act of 1978, as amended.

To test the effectiveness of Ex-Im Bank’s controls, we attempted to browse the Internet
and download pornographic material using Ex-Im Bank computers. We randomly used
web addresses associated with pornography and search engines – using words and phases
normally associated with pornography – for links and addresses to connect to
pornography sites. For the most part, all attempts were blocked.

On the third day that the above controls testing began, the Office of the Chief Information
Officer (OCIO) IT Infrastructure and Security Office Director met with the OIG’s
Assistant Inspector General for Audit (AIGA) to report logged activity by OIG staff to
access pornography. This Director presented the AIGA with a Security Incident Report
and supporting documentation. The AIGA advised the Director that the OIG staff
activity was a test of Ex-Im Bank controls. Also, because the test resulted in reaching
three pornography sites, the AIGA provided the three accessed sites to the Director who
immediately blocked them for future access on Ex-Im Bank computers.

Recognizing that it is impossible to totally block pornography because new sites are
constantly created and some sites contain a combination of pornography and non-
pornography, our test confirmed that Ex-Im Bank has adequate controls in place to
manage access to sexually explicit material.

Our discussion of Ex-Im Bank’s controls is presented below.

Blockers
Ex-Im Bank significantly strengthened its IT capabilities to block inappropriate Internet
sites and e-mails since 2006. Although it took an extensive amount of time to implement
the current systems, in July 2009 the Software/Hardware Intrusion Detection Systems
(IDS) and Intrusion Prevention Systems (IPS) were fully implemented.



                                            4	               Office of Inspector General
                                                                 Export-Import Bank of the United States
Explicit Computer Usage                                                                      OIG-SR-10-02 

                                             Special Report 



Full implementation of this hardware/software took several years primarily due to the
need to upgrade IT infrastructure and enhance the power system. Because installation
was conducted one floor at a time, some Ex-Im Bank computer users had blocking
software installed as far back as three years ago, while others were not blocked until
approximately one year ago.

Ex-Im Bank’s OCIO identified sites, words, and numerous categories for its IDS and IPS
to either monitor or block. Prohibited categories which are either monitored by OCIO or
automatically blocked altogether are sites that include materials which are: sexually
explicit, violent, hate, gambling and approximately 48 other categories.

The site blocking hardware/software is updated every five minutes via subscription-based
services. It is also manually updated by the IT Infrastructure and Security Office when a
prohibited site is identified outside of the subscribed service.

Monitoring

Security Engineers in the IT Infrastructure and Security Office review Internet browsing
logs daily. The logs are analyzed to see if Ex-Im Bank users are excessively using
computer bandwidth or attempting to visit blocked, malware 2 , or questionable sites.

E-mail attachments are also monitored via IDS software. This filtering software works
by comparing known sexually explicit key words and other known spamware/virus
names to the e-mail attachment(s).

When questionable activity is identified by Security Engineers and others, such as Ex-Im
Bank’s Helpdesk staff, the IT Infrastructure and Security Office Director will research
the activity to determine the appropriate action.

Action

Research revealing prohibited activity and/or potential harm to Ex-Im Bank’s IT systems
is summarized and discussed at the daily IT Infrastructure and Security Office meeting.
For a newly identified site which may be harmful or prohibited, the OCIO will add the
site to the IPS systems. For prohibited activity conducted by an employee or contractor,
the IT Infrastructure and Security Office Director will issue a report and supporting
evidence of the behavior to the Chief Information Officer (CIO). The CIO will then
forward the report and evidence to the OGC for a determination of the behavior and
appropriate disciplinary action.




2
  Malware is short for malicious software. It is software designed to infiltrate a computer system without
the owner’s informed consent.
                                                     5                   Office of Inspector General
                                                                              Export-Import Bank of the United States
Explicit Computer Usage                                                         OIG-SR-10-02 

                                      Special Report 



To improve the reporting of computer misuse, the IT Infrastructure and Security Office
Director recently created a standardized form – Security Incident Report – based on
lessons learned from reporting previous incidents.

Over the past two years, the IT Infrastructure and Security Office Director reported
incidents on five employees.

      Three involved malware.
      Two involved accessing pornography.



Suggestion 1
The CIO should include the IG in the distribution of Security Incident Reports on
computer misuse involving incidents referred to management for disciplinary actions.


Management Response
The CIO stated that management concurred with the intent of the recommendation. The
current procedure already provides that OCIO forward these incident reports to the OGC
for their review. After the OGC review, the CIO will distribute incident reports to the IG.




                                            6                Office of Inspector General
                                                                 Export-Import Bank of the United States
Explicit Computer Usage                                                          OIG-SR-10-02 

                                      Special Report 




APPENDIX A – STANDARDS OF ETHICAL CONDUCT

PART 2635 - STANDARDS OF ETHICAL CONDUCT FOR EMPLOYEES OF THE
EXECUTIVE BRANCH SUBPART A - GENERAL PROVISIONS

§ 2635.101 Basic obligation of public service.

(a) Public service is a public trust. Each employee has a responsibility to the United
States Government and its citizens to place loyalty to the Constitution, laws and ethical
principles above private gain. To ensure that every citizen can have complete confidence
in the integrity of the Federal Government, each employee shall respect and adhere to the
principles of ethical conduct set forth in this section, as well as the implementing
standards contained in this part and in supplemental agency regulations.

(b) General principles. The following general principles apply to every employee and
may form the basis for the standards contained in this part. Where a situation is not
covered by the standards set forth in this part, employees shall apply the principles set
forth in this section in determining whether their conduct is proper.
(1) Public service is a public trust, requiring employees to place loyalty to the
Constitution, the laws and ethical principles above private gain.
(2) Employees shall not hold financial interests that conflict with the conscientious
performance of duty.
(3) Employees shall not engage in financial transactions using nonpublic Government
information or allow the improper use of such information to further any private interest.
(4) An employee shall not, except as permitted by subpart B of this part, solicit or accept
any gift or other item of monetary value from any person or entity seeking official action
from, doing business with, or conducting activities regulated by the employee's agency,
or whose interests may be substantially affected by the performance or nonperformance
of the employee's duties.
(5) Employees shall put forth honest effort in the performance of their duties.
(6) Employees shall not knowingly make unauthorized commitments or promises of any
kind purporting to bind the Government.
(7) Employees shall not use public office for private gain.
(8) Employees shall act impartially and not give preferential treatment to any
organization or individual.
(9) Employees shall protect and conserve Federal property and shall not use it for other
than authorized activities.
(10) Employees shall not engage in outside employment or activities, including seeking
or negotiating for employment, that conflict with official Government duties and
responsibilities.
(11) Employees shall disclose waste, fraud, abuse, and corruption to appropriate
authorities.

                                             7                Office of Inspector General
                                                                  Export-Import Bank of the United States
Explicit Computer Usage                                                            OIG-SR-10-02 

                                       Special Report 



(12) Employees shall satisfy in good faith their obligations as citizens, including all just
financial obligations, especially those--such as Federal, State, or local taxes--that are
imposed by law.
(13) Employees shall adhere to all laws and regulations that provide equal opportunity for
all Americans regardless of race, color, religion, sex, national origin, age, or handicap.
(14) Employees shall endeavor to avoid any actions creating the appearance that they are
violating the law or the ethical standards set forth in this part. Whether particular
circumstances create an appearance that the law or these standards have been violated
shall be determined from the perspective of a reasonable person with knowledge of the
relevant facts.

(c) Related statutes. In addition to the standards of ethical conduct set forth in this part,
there are conflict of interest statutes that prohibit certain conduct. Criminal conflict of
interest statutes of general applicability to all employees, 18 U.S.C. 201, 203, 205, 208,
and 209, are summarized in the appropriate subparts of this part and must be taken into
consideration in determining whether conduct is proper. Citations to other generally
applicable statutes relating to employee conduct are set forth in subpart I and employees
are further cautioned that there may be additional statutory and regulatory restrictions
applicable to them generally or as employees of their specific agencies. Because an
employee is considered to be on notice of the requirements of any statute, an employee
should not rely upon any description or synopsis of a statutory restriction, but should
refer to the statute itself and obtain the advice of an agency ethics official as needed.




                                              8                 Office of Inspector General
                                                                    Export-Import Bank of the United States
Explicit Computer Usage                                                         OIG-SR-10-02 

                                     Special Report 




APPENDIX B – DOUGLAS FACTORS

In Douglas v. Veterans Administration (1981), the Merit Systems Protection Board
identified 12 relevant factors that agency management needs to consider and weigh in
deciding an appropriate disciplinary penalty. The 12 Douglas Factors are:

   1.	 The nature and seriousness of the offense and its relation to the employee’s duties,
       position, and responsibilities, including whether the offense was intentional or
       technical or inadvertent, or was committed maliciously or for gain, or was
       frequently repeated;
   2.	 The employee’s job level and type of employment, including supervisory or
       fiduciary role, contacts with the public, and prominence of the position;
   3.	 The employee’s past disciplinary record;
   4.	 The employee’s past work record, including length of service, performance on the
       job, ability to get along with fellow workers, and dependability;
   5.	 The effect of the offense upon the employee’s ability to perform at a satisfactory
       level and its effect upon supervisors’ confidence in the employee’s ability to
       perform assigned duties;
   6.	 Consistency of the penalty with those imposed upon other employees for the same
       or similar offenses;
   7.	 Consistency of the penalty with the applicable agency table of penalties (which
       are not to be applied mechanically so that other factors are ignored);
   8.	 The notoriety of the offense or its impact upon the reputation of the agency;
   9.	 The clarity with which the employee was on notice of any rules that were violated
       in committing the offense, or had been warned about the conduct in question;
   10. The potential for employee’s rehabilitation;
   11. Mitigating circumstances surrounding the offense, such as unusual job tensions,
       personality problems, mental impairment, harassment, or bad faith, malice or
       provocation on the part of others involved in the matter; and
   12. The adequacy and effectiveness of alternative sanctions to deter such conduct in
       the future by the employee or others.




                                            9	               Office of Inspector General
                                                                 Export-Import Bank of the United States
Explicit Computer Usage                                          OIG-SR-10-02 

                            Special Report 




APPENDIX C – MANAGEMENT RESPONSE
 





                          SEE NEXT PAGE 





                                  10           Office of Inspector General
                                                  Export-Import Bank of the United States
                               EXPORT-IMPORT BANK
                                of the UNITED STATES


August 26, 2009


Jean Smith
Assistant Inspector General for Audit
Office of Inspector General
Export-Import Bank of the United States

Ref: Explicit Computer Usage - August 19, 2010, OIG-SR-10-xx.


Dear Jean:

      Thank you for the opportunity to review and comment on the IG special report
 “Explicit Computer Usage” dated August 19, 2010, number OIG-SR-10-xx.

       We agree with both findings and concur with the suggestion (with a minor 

 revision proposed below)


        Finding A: Adequate policies on information technology use and disciplinary
 guidance exist. We are in agreement with your finding that the Ex-Im Bank has
 adequate controls in place to manage access to pornographic/sexually explicit web
 sites.

      Ex-Im Bank has policies, procedures and controls in place to ensure staff and 

 contractors have a safe computing environment at work. 


        Ex-Im Bank has policies covering “Rules of Behavior for Users of Export Import
 Bank Information Systems” clearly delineating responsibilities and expected behavior
 of all individuals with access to the systems; and “Limited Personal Use of
 Government Office Equipment Policy,” establishing privileges and responsibilities of
 Ex-Im Bank employees and contractors with regard to acceptable personal use of
 Government office equipment that does not interfere with Ex-Im Bank’s mission or
 operations and does not violate the Standards of Ethical Conduct for Employees of the
 Executive Branch, 5 C.F.R. § 2635. These policies follow NIST and the CIO Council
 Government-wide guidelines.
      The Ex-Im Bank performs mandatory annual IT Security and Privacy Awareness
Training. This training reinforces policy defined by the Limited Use Policy, Rules of
Behavior, Sensitive Information Policy, and the Remote Access Policy and other
policies as appropriate. The Office of the Chief Information Officer (OCIO) also
conducts an occasional IT security expo in order to reinforce awareness of the IT
security, rules of behavior and privacy policies of Ex-Im Bank.

       Finding B: Adequate controls are in place to manage access of sexually
explicit material The OCIO has also implemented comprehensive Internet and e-mail
blocking solutions to web sites and email with: 1) inappropriate content, 2) content that
is likely to present IT security issues, and 3) content that presents network capacity
issues.

      Currently, no explicit regulation mandates federal agencies to actively implement
IT solutions for blocking access to inappropriate web sites in the workplace. The Bank
has proactively implemented industry best practice capabilities in that area – solutions
provided by vendors such as CISCO. The site blocking hardware and software is
updated every five minutes via subscription-based services. It is also manually updated
internally to handle exceptions (adding or deleting sites that are not properly
categorized or blocking sites with known security issues).

      Logs are monitored daily and incidents are evaluated and are generally
disseminated using our incident reporting procedure. The procedure states that the CIO
will forward the incident report and accompanying evidence to the Office of General
Counsel (OGC) for a determination of the behavior and appropriate disciplinary action.

      Suggestion 1: The CIO should include the IG in the distribution of Security
Incident Reports on computer misuse involving incidents referred to management
for disciplinary actions. We concur with the intent of the recommendation. The
current procedure already provides that OCIO forward these incident reports to the
Office of General Counsel (OGC) for their review. After the OGC review, the CIO will
distribute incident reports to the IG.

Sincerely,



Fernanda Young
Chief Information Officer




                                          2

Cc:
 Michael Cushing, Senior Vice President, Resource management
 Jonathan Cordone, Senior Vice President and General Council
 John Simonson, Senior Vice President and Chief Financial Officer
 Alice Albright, Executive Vice president and Chief Operating Officer
 Diane Farrell, Member of the Board of Directors
 Bijan R. Kian, Member of the Board of Directors




                                        3

Office of Inspector General
Export-Import Bank of the United States
811 Vermont Avenue, NW
Washington, DC 20571
202-565-3908
www.exim.gov/oig
